BECKER GALLAGHER
Briefs

and

Supreme Court ofthe United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief of the International Institute for
Conflict Prevention & Resolution as Amicus Curiae in
Support of Petitioner in 20-794, Seruotronics, Inc., u.
Rolls-Royce PLC and The Boeing Company, was sent
via Three Day Service to the U.S. Supreme Court, and
3 copies sent via Three Day Service and e-mail to the
following parties listed below, this 5th day of January,
2021:
Stephen R. Stegich III
Condon & Forsyth
7 Times Square, 18th Floor
New York, NY 10036
(917) 940-0272
sstegich@confonlaw.com

Counsel for Petitioner
Scott Payne Martin
Perkins Coie LLP
1201 Third Avenue, Suite 4900
Seattle, WA 98101
(206) 359-3600
smartin@perkinscoie.com

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Wash ington, DC 20005

Larry S. Kaplan
KMA Zuckert LLC
200 West Madison Street, 16th Floor
Chicago, Illinois 60606
(312) 345-3000
lkaplan@kmazuckert.com
Counsel for Respondents

John B. Pinney
Counsel of Record
Roula Allouch
Graydon Head & Ritchey LLP
312 Walnut Street, Ste. 1800
Cincinnati, OH 45202
(513) 629-2730
jpinney@graydon.law
Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on January 5, 2021.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

I

Date: U ~

L,J/k l<1

Notary Public
[seal]

